  L



ASSET MANAGEMENT: Opportunities Exist
to Enhance Decision-Making Process for
Utilization of Long-Distance Equipment




                Report No. OIG-E-2015-001 | October 23, 2014
This page intentionally left blank.
   NATIONAL RAILROAD
   PASSENGER CORPORATION



                              REPORT HIGHLIGHTS
Why We Did This Review                ASSET MANAGEMENT: OPPORTUNITIES EXIST TO ENHANCE
Amtrak’s network of 15 long-        DECISION-MAKING PROCESS FOR UTILIZATION OF LONG-DISTANCE
distance trains is expected to                               EQUIPMENT
                                             (Report No. OIG-E-2015-001, October 23, 2014)
lose almost $615 million in
fiscal year 2014. In October       What We Found
2013, the company established      The company is undertaking initiatives to improve the utilization of
a long-distance business line to   its long-distance equipment, but the benefits associated with those
improve the financial              initiatives may be overstated because the processes used to support
performance of these trains and    the decisions, although generally sound, have not been as
to help support the company’s      analytically rigorous or disciplined as they should be to support
strategic goal of being            strategic decision-making.
profitable on an operating
basis, with revenues exceeding     One initiative, led by the long-distance business line, has identified
operating costs. Optimizing the    several actions to increase equipment utilization. The business line
utilization of equipment assets    started implementing two of these actions although it has yet to fully
could help the company             analyze the potential costs and benefits or to fully address the risks
capture a portion of up to         associated with each action. These actions may likely improve the
                                   financial performance of the trains, but more rigorous analysis will
approximately $25 million in
                                   increase the likelihood that actual benefits will meet expectations.
additional revenue each year.
                                 In another initiative, a cross-functional working group established a
Given this, we assessed the
                                 generally sound process for analyzing how best to utilize 130 new
extent to which the company is
                                 long-distance cars that the company is procuring. Recommendations
using a process for making
                                 made to senior leaders in April 2014 were not developed in
fleet utilization decisions that accordance with this process, and the supporting analysis was
consistently follows sound       flawed. If the plan based on those recommendations is followed, the
business practices. We did this long-distance business line’s operating loss could increase; however,
by comparing the company’s       the company has time to reassess the plan.
practices to sound business
practices we had identified in Recommendations
earlier reports.
                                 To improve decisions about the utilization of long-distance
The full report is at            equipment, we recommend several actions, including implementing
www.amtrakoig.gov/reading-room   a consistent process that assigns clear accountability for decisions
                                 and relies on sound analysis. The company generally agreed with
                                 our recommendations.
This page intentionally left blank
    NATIONAL RAILROAD
    PASSENGER CORPORATION



    NATIONAL RAILROAD
Memorandum
    PASSENGER CORPORATION


To:             DJ Stadtler
                Senior Vice President, Operations

From:           David R. Warren
                Assistant Inspector General, Audits

Date:           October 23, 2014

Subject:        Asset Management: Opportunities Exist to Enhance Decision-Making Process
                for Utilization of Long-Distance Equipment (Report No. OIG-E-2015-001)

Amtrak’s (the company) network of 15 long-distance trains is expected to lose almost
$615 million in fiscal year 2014.1 In October 2013, the company established a long-
distance business line to improve the financial performance of these trains and to help
support the strategic goal of being profitable on an operating basis, with revenues
exceeding operating costs. One way the business line can contribute to this goal is by
optimizing how its equipment assets are utilized. By better aligning long-distance train
capacity with customer demand, the company could capture up to approximately $25
million in additional revenue.2 Given this, we assessed the extent to which the company
is using a process for making fleet utilization decisions that consistently follows sound
business practices.

To evaluate the process, we compared the company’s practices to four sound business
practices we identified in two prior reports:3


___________________________
1 The company reported this figure in its April 2014 FY 2014-2018 Five Year Financial Plan.
2 This estimate of potential revenue is based on the company’s estimate of unmet demand on all long-
distance trains.
3 See: Asset Management: Integrating Sound Business Practices into its Fleet Planning Process Could Save

Amtrak Hundreds of Millions of Dollars on Equipment Procurements (OIG-E-2013-014, May 28, 2013), and
Corporate Governance: Planned Changes Should Improve Amtrak’s Capital Planning Process, and Further
Adoption of Sound Business Practices Will Help Optimize the Use of Limited Capital Funds (OIG-E-2013-020,
September 27, 2013).
                                                                                        2
                          Amtrak Office of Inspector General
       Asset Management: Opportunities Exist to Enhance Decision-Making Process
                     for Utilization of Long-Distance Equipment
                     Report No. OIG-E-2015-001, October 23, 2014

      Identify equipment needs through analyses of route-specific ridership demand
       and forecasts of equipment availability.
      Develop high-quality cost, benefit, and schedule estimates.
      Analyze alternatives to cost-effectively meet needs.
      Assess risks, including conducting sensitivity analyses on data and assumptions.

For a detailed discussion of our scope and methodology, see Appendix A.


OPPORTUNITIES EXIST TO ENHANCE PROCESSES FOR
DECIDING HOW BEST TO USE EQUIPMENT
The company is actively engaged in two major initiatives to improve utilization of its
long-distance equipment. These efforts have been conducted by two groups: the long-
distance business line management team and a cross-departmental working group that
is being led by the Marketing department. These groups are taking different approaches
to analyzing the ways to improve financial performance for several long-distance train
routes.

In general, both groups applied sound business practices; however, they did not always
follow disciplined and consistent decision-making processes, and some of the data
analysis could have been enhanced. Further, one of the initiatives is not currently under
the purview of the business line general manager who is ultimately responsible for the
financial performance of the long-distance trains. Strengthening the decision-making
and data analysis processes—and ensuring that improvement initiatives are under the
purview of the long-distance general manager—could enhance the likelihood that
ongoing and future initiatives produce optimum results.

In the following sections, we discuss the two initiatives. We focus on the processes used
to analyze the costs, benefits, and risks of the initiatives—where the processes worked
well and where there are opportunities to improve the analysis and decision-making
process, including accountability for financial performance improvements.

Initiative 1: Long-Distance Business Line’s Process Could be
Enhanced by Additional Analysis
The new general manager of the long-distance business line is leading one of the two
initiatives. Since 2013 when he assumed the role, he has been accountable for the
                                                                                                            3
                          Amtrak Office of Inspector General
       Asset Management: Opportunities Exist to Enhance Decision-Making Process
                     for Utilization of Long-Distance Equipment
                     Report No. OIG-E-2015-001, October 23, 2014

financial performance of long-distance trains. The company established the business
line to create accountability, dissolve departmental silos, and move decision-making
and accountability closer to Amtrak’s customers. The business line’s management team
(herein referred to as the business line) includes the general manager, several regional
deputies, and the directors for the 15 long-distance routes.

The general manager told us that the business line is using the company’s strategic
management system to identify, analyze, and implement initiatives to improve the
financial performance of the long-distance trains. This overall effort has included
comparing various initiatives designed to increase revenue and reduce costs in a
comprehensive manner in order to determine the best course of action. Using this
approach, the business line has started initiatives to improve how it utilizes its
equipment on the Sunset Limited and the Auto Train.4 Our evaluation of these
initiatives concluded that the process they used to develop them generally followed
sound practices, and we identified opportunities to improve the processes and their
implementation.

Analysis Supporting the Decision to Reassign Equipment from the Sunset
Limited Could be Strengthened

The business line generally used sound business practices in making decisions about
how best to utilize cars assigned to the Sunset Limited5—the company’s poorest
financially performing long-distance train in terms of cost recovery ratio.6 However, the
process that was used and the resulting decision could be improved by more fully
following sound practices in analyzing costs and benefits and in assessing risk. Further,
one of the deputy general managers noted that the business line has only a limited
capability to conduct some of the analysis required to support equipment utilization
decisions. Also, there is no documented policy to guide the decision-making process.

Equipment needs were identified. As part of its process, the business line reviewed the
seasonal demand for long-distance trains and determined that opportunities existed to
capture additional revenue if more capacity could be made available and then added to
___________________________
4
  These initiatives are part of a larger plan that the business line developed to reduce the operating losses
on long-distance trains by about $200 million by the end of fiscal year 2018.
5 The Sunset Limited runs from New Orleans to Los Angeles.

6 The company defines cost recovery ratio as a measure of financial performance equal to revenue

generated from operations divided by cash operating expenses.
                                                                                           4
                        Amtrak Office of Inspector General
     Asset Management: Opportunities Exist to Enhance Decision-Making Process
                   for Utilization of Long-Distance Equipment
                   Report No. OIG-E-2015-001, October 23, 2014

certain long-distance trains to capture unmet demand. In analyzing its options, the
business line determined that they could increase capacity by improving the availability
of existing equipment.

Alternatives were analyzed. The business line explored the option to make more
capacity available by reducing equipment on the Sunset Limited and redeploying the
equipment to other trains. Historically, the Sunset Limited has required four bi-level
trainsets to meet its schedule of running three times a week throughout the year. The
four trainsets were needed because the maintenance schedule for the trainsets required
long layovers on both ends of the route. However, after reviewing maintenance
practices, the business line determined that they needed only three trainsets if the
train’s maintenance schedules could be adjusted. This required transferring four vacant
maintenance positions in Chicago to New Orleans and filling these positions with new
staff. The business line decided to go forward with this option and completed the
necessary actions in March 2014.

Revenue impact was not estimated. Initially, the business line had planned to use the
extra equipment to capture revenue opportunities resulting from seasonal demand on
other routes. Once the equipment became available, these cars were used to improve
the reliability of departure times for two bi-level long-distance trains—the City of New
Orleans and Texas Eagle. The business line did not analyze the revenue benefits from
improved reliability for either train, and they did not estimate the additional revenue
opportunities that could be captured by using the equipment elsewhere. Such an
analysis would show whether the equipment was being deployed in an optimum
manner.

Operating cost estimates were understated. The business line estimated that the costs
associated with changing the maintenance schedule for the Sunset Limited would
reduce the train’s operating costs by about $144,000 annually. These savings would be
achieved through (1) reducing the costs associated with layover times for train crews
and (2) streamlining the process of restocking diner and lounge cars in New Orleans.
However, the costs associated with hiring new maintenance personnel in New Orleans
were not included in the business line’s estimates. To accurately account for the savings
associated with this change, these costs need to be included.

Impact of risks has not been quantified. The business line identified cost and revenue
risks associated with removing the trainset from service on the Sunset Limited route.
With only three trainsets available, a significantly delayed inbound train could delay an
                                                                                                            5
                         Amtrak Office of Inspector General
      Asset Management: Opportunities Exist to Enhance Decision-Making Process
                    for Utilization of Long-Distance Equipment
                    Report No. OIG-E-2015-001, October 23, 2014

outbound train’s departure, which could increase operating costs and potentially
reduce revenue. In implementing the action, the business line decided that the risks
associated with this action were acceptable and that the business line could absorb the
costs if additional trains were delayed. An estimate of the costs resulting from these
delays was not one of the factors considered in the decision. Estimating the costs of
delays would have enabled the business line to better understand the potential
magnitude and impact of the risks they accepted, and whether a risk mitigation plan
was needed.

Analysis Supporting the Decision to Change Equipment on the Auto Train Could
be Strengthened

The business line generally utilized sound business practices in making decisions about
how best to assign cars to the Auto Train.7 We also found that the process they used and
the resulting decision could be improved by more fully analyzing costs and benefits
and by more fully assessing risk.

Equipment needs were identified. The business line determined that adding passenger
cars to the Auto Train could capture more revenue. The analysis showed that at certain
times of the year, customer demand exceeds the train’s capacity. However, before cars
can be added, the company must overcome an obstacle: the Auto Train has a long-
standing practice of using no more than 16 passenger cars on each train because of
constraints in delivering electric power to longer trains.

Alternatives were analyzed. The business line is looking at ways to overcome the
electric power limitation, but in the interim decided to test options for increasing the
passenger capacity without exceeding the constraints. For example, they added a 17th
passenger coach car to the train and tested the results from January 2014 to March 2014,
when less power was needed to operate the train’s air conditioners. From April to May
2014, they tested another alternative—keeping the extra coach car and removing a
lounge car to reduce the electric power required. In June 2014, the business line started
testing the benefits of replacing the lounge car with a sleeper car instead of a coach car,
which would not increase the power requirement.

___________________________
7The Auto Train runs daily between Lorton, Virginia, and Sanford, Florida. It consists of passenger cars
and automobile carrier cars. It is the company’s best-performing long-distance train in terms of its cost
recovery ratio.
                                                                                                         6
                         Amtrak Office of Inspector General
      Asset Management: Opportunities Exist to Enhance Decision-Making Process
                    for Utilization of Long-Distance Equipment
                    Report No. OIG-E-2015-001, October 23, 2014

Revenue estimates are not fully developed. Business line managers told us that adding
the coach car from January 2014 through May 2014 generated about $1 million in
incremental revenue during the testing period, and that the revenue could amount to
about $2.2 million annually. These managers also estimated that using a sleeper car
instead of the extra coach could generate an additional $0.7 million for a total of up to
$2.9 million annually. The estimates reflect the increased amount of revenue the
additional cars could generate annually, but according to the business line officials, they
will use the cars only when seasonal demand warrants it.

The analysis has not yet been completed, including testing the sensitivity of the
assumptions behind different deployment scenarios. Further, the business line did not
analyze the effect of the change in cars on customer satisfaction or the potential revenue
impact of eliminating a lounge car from the train. Business line officials stated that they
were planning to conduct a more detailed analysis.

Costs are not fully developed. The operating costs associated with running additional
equipment has not been factored into the business line’s cost-benefit analysis for this
initiative. In particular, the cost estimates did not include the operating costs for the
additional automobile carriers associated with the increased number of passengers
riding in the extra coach or sleeping car. Business line officials told us they believe the
additional revenue will exceed the additional costs, but a full incremental cost analysis
has yet to be completed.

Analysis of risk can be more complete. The business line has not fully examined the
risks associated with changing maintenance practices to support the previously
discussed actions. The extra coach and sleeper cars that would be added to the Auto
Train would come from reducing the number of coaches (three) and sleeper cars (one)
that are kept in reserve to replace cars that break down. Using the cars in the shop
count8 to increase the revenue capacity of the train would minimize this reserve buffer,
particularly for the sleeper cars that now would not have a serviceable backup. The
business line managers stated that they recognize the risks associated with this action,
but in their judgment the potential for additional revenue outweighs those risks. An


___________________________
8In this report, we use the term shop count to refer to the equipment the company keeps in reserve for
maintenance; it also keeps some equipment as spares. The company considers the cars in both the shop
count and spares as part of the active fleet.
                                                                                                        7
                         Amtrak Office of Inspector General
      Asset Management: Opportunities Exist to Enhance Decision-Making Process
                    for Utilization of Long-Distance Equipment
                    Report No. OIG-E-2015-001, October 23, 2014

analysis that quantifies the risks would provide a better basis for decision-making and
determining whether a risk mitigation plan is warranted.

Initiative 2: New Car Deployment Process Could be Enhanced by
Completing Additional Analysis
In September 2013, the company established a working group to determine how to best
utilize the new passenger cars that the company is procuring. Led by an official from
the Marketing department, the group used a process that generally followed sound
business practices. However, recommendations made at an April 2014 meeting of senior
executives were not developed in accordance with the process the group had been
following, and the analysis supporting this recommendation was inaccurate and
incomplete. Consequently, the long-distance business line’s operating loss could
actually increase if the cars are used in the manner recommended at the meeting.
Because they have time before the cars will be delivered, opportunities exist to further
analyze and improve the plan for utilizing the new cars.

Working Group Process Initially Followed Generally Sound Practices

The company is in the process of acquiring 130 new single-level long-distance cars for
about $300 million.9 These new cars will enable the company to retire its oldest cars by
replacing single-level dining and baggage cars, many of which are more than 60 years
old—twice as old as the company’s standard for the commercial life of a passenger
car. Delivery of these cars has not started, but is planned to be completed in 2016,
starting with baggage cars and ending with dining and sleeping cars.

Some of these cars will also expand sleeping capacity on the single-level overnight
routes, which the working group believes will enable the company to generate more
revenue.10 The original quantities for the four types of cars included in the procurement
are shown in Table 1.

___________________________
9 Amtrak has five long-distance overnight routes into New York City through tunnels that require the
trains to be single-level: the Crescent, which runs between New York City and New Orleans; the Lake
Shore Limited and the Cardinal, which run between New York City and Chicago; and the Silver Star and
Silver Meteor, which run between New York City and Miami. The company also plans to add a sleeping
car to an overnight regional train traveling to Boston, New York, and Washington.
10 The working group also analyzed the effect of using the new sleeping capacity on bi-level long-distance

trains such as the Capitol Limited.
                                                                                                          8
                          Amtrak Office of Inspector General
       Asset Management: Opportunities Exist to Enhance Decision-Making Process
                     for Utilization of Long-Distance Equipment
                     Report No. OIG-E-2015-001, October 23, 2014

     Table 1. Number of Existing Cars Compared to Number of New Long-Distance
                                Cars in Original Order
Car Type                               Existing Quantity of Cars Number of New Cars Ordered

Baggage                                                        64                                     55
Combination Car*                                                0                                     25
(Baggage and Sleeping)
Sleeping**                                                     50                                     25
Dining                                                         21                                     25
Source: Marketing presentation to Amtrak executives on April 11, 2014
 *The combination car includes cargo space for baggage and other items plus sleeping quarters for train
crews, making other sleeping car space that had been used by the crew available for passengers.
**The new sleeping cars are intended to augment, rather than replace, existing sleeping cars

When we initiated this evaluation, the original long-distance general manager stated
that he planned to put all 130 new cars into the active fleet when they were received,
although no specific plan was developed for how and where they would be used. We
analyzed the cost and revenues of deploying these cars on all of the single-level
overnight routes and briefed the general manager on our work in May 2013. At the
time, we estimated that if all of the new sleeping cars were put into full-time service, the
company would lose about $6 million per year because the operating costs associated
with the additional cars would outweigh the potential revenue gains.

Subsequent to this discussion and the retirement of the original long-distance general
manager in July 2013, the company formed a headquarters-based working group to
analyze how to best use the cars prior to the establishment of the long-distance business
line. Led by an official from the Marketing department, the cross-departmental team
included personnel from the Operations and Finance departments. The group began a
sophisticated analysis of deployment options based on different combinations of cars on
trains, seasonal demand, and shop count.11 In February 2014, the group briefed the
steering committee of company executives12 on its progress and planned to make its
recommendations to the committee when it completed its analysis. Once the steering
committee approved the working group’s work, they would present their
recommendations to the company’s executive committee.

___________________________
11 This initiative was not specifically incorporated into the company’s new strategic management system
or integrated into the long-distance business line plan.
12 The current long-distance general manager joined the group’s steering committee in November 2013.
                                                                                           9
                        Amtrak Office of Inspector General
     Asset Management: Opportunities Exist to Enhance Decision-Making Process
                   for Utilization of Long-Distance Equipment
                   Report No. OIG-E-2015-001, October 23, 2014

From October 2013 to April 2014, the group conducted several analyses. They generally
followed sound practices by testing alternative car deployments on different routes
utilizing detailed estimates of costs and revenue from the different scenarios. The
scenarios included matching full and combination sleeping car assignments to unmet
demands on routes by season, including storing surplus capacity in off-seasons to
eliminate operating expenses.

Quantifying baggage requirements for the single-level long-distance trains proved to be
a challenge for the group. The company had planned to replace all of the existing
baggage cars because of their excessive age, but it was not buying enough new full-
baggage cars to replace the old baggage cars on a one-for-one basis. Therefore, some
trains needed to use a combination car, which have 60 percent less cargo space than a
full-baggage car. The working group attempted to identify the trains that should get the
combination cars, but data on baggage requirements for each train were limited and
unreliable. Based on the data available, the working group eventually identified only
one long-distance train with year-round baggage requirements that could be
accommodated by a combination car rather than a full-baggage car. Therefore, they
concluded that the company was not buying enough full-baggage cars to meet its
requirements.

Decisions Were Made to Change the Mix of Cars Before the Working Group Had
Completed its Analysis

On April 11, 2014, senior executives met with the President and Chief Executive Officer
to discuss issues related to the new long-distance car procurement. During the meeting,
the Marketing department presented an analysis showing that deploying the new cars
would result in incremental revenue exceeding incremental costs by $2.2 to $2.8 million
annually once all the cars are received and are put into the active fleet. Marketing
recommended changing the mix of car types to address the shortage of full-baggage
cars and also recommended route assignments for the new cars. These
recommendations were not intended to be the final word on the ultimate deployment of
the new cars, according to the Vice President for Marketing.

Marketing officials told us that the utilization plan presented in the April meeting was
developed on short notice by a subgroup of the working group. The plan was not
approved by the working group’s steering committee, and it was not reviewed before
the meeting by the general manager for the long-distance business line. Marketing
officials added that the plan did not include a full updated analysis of the operating
                                                                                                        10
                            Amtrak Office of Inspector General
         Asset Management: Opportunities Exist to Enhance Decision-Making Process
                       for Utilization of Long-Distance Equipment
                       Report No. OIG-E-2015-001, October 23, 2014

costs from the Finance department because of the truncated timeline, but that they
focused on providing sufficient information to make an informed decision at the
meeting. They did note that staff from the Finance and Marketing departments
discussed and revised some items in the plan before presentation. The plan relied on
analysis and estimates that were largely put together from prior working group
analyses completed from October 2013 through April 2014, which included estimates
that were not relevant to the plan that Marketing presented.

As a result of the April 11 meeting, the company negotiated a reduction in the number
of combination cars it was buying from 25 to 10, and an increase in the number of
baggage cars from 55 to 70. On June 11, 2014,13 this change order was executed,
reflecting the working group’s conclusion that the company was not buying enough
baggage cars to meet requirements. The number of each type of car in the modified
order is shown in Table 2.

        Table 2. Comparison of the Number of Existing Cars, New Cars Originally
                     Ordered, and New Cars in the Modified Order
Car Type                          Existing Amtrak Cars        Original Order               Modified Order

Baggage                                                  64                           55                70
Combination                                               0                           25                10
Sleeping                                                 50                           25                25
Dining                                                   21                           25                25
Source: OIG analysis of Marketing presentation to company executives on April 11, 2014

Deviation from the Established Process Resulted in Inaccurate and Incomplete
Analysis

As previously noted, the car utilization plan that Marketing recommended to company
executives on April 11, 2014 estimated that incremental revenue should exceed
incremental costs by $2.8 million. Our analysis of the plan showed that it potentially
overestimated the incremental revenue that the cars could generate and underestimated
the costs associated with putting all of the cars into service. Even if the additional
revenue is generated as projected, the underestimation of costs is large enough that it
could increase the business line’s net operating loss if the plan is followed. Our


___________________________
13   This change could save the company about $0.2–$1.3 million on the total order.
                                                                                           11
                          Amtrak Office of Inspector General
       Asset Management: Opportunities Exist to Enhance Decision-Making Process
                     for Utilization of Long-Distance Equipment
                     Report No. OIG-E-2015-001, October 23, 2014

assessment is based on the following limitations in the analysis of cost and revenue
estimates:

      Operating costs were not fully considered. The plan did not capture the
       additional annual operating costs generated by adding new sleeper cars to two
       trains. Based on our analysis of the Finance department’s earlier cost projections,
       which included these operating costs, we estimate that increasing the size of the
       trains will increase fuel and maintenance costs by about $1.5 million annually.
      Savings from staffing changes were inappropriately attributed to the new cars.
       The plan attributes about $1 million annually in cost savings to not having to
       assign attendants to additional sleeping cars on two trains. However, these crew
       changes could be implemented now—regardless of whether new cars are added
       to trains—and therefore should not be considered part of the incremental
       benefits of adding the cars. The company previously analyzed potential crew
       changes and found that this could be done with existing equipment. Based on
       this analysis, we estimate that up to $3.7 million could be saved by making these
       crew changes now. This action would result in $3.7 million in funds that could be
       put to better use elsewhere.
      Revenue estimate was not validated. The plan attributes about $500,000 in
       additional revenue that will be generated because the cars are new. Marketing
       officials told us that this estimate was based on studies referenced in a
       forecasting demand handbook from the United Kingdom. The handbook states
       that there was a wide variation in the results of these studies, with half of the
       studies showing no significant change in ticket sales due to new equipment.
       While it may be reasonable to assume that new equipment will attract more
       riders, the group has not conducted the analysis necessary to determine the
       validity of relying on these studies to estimate the effect of adding new
       equipment to the long-distance trains.

The new plan also did not account for the costs of keeping a large portion of the cars in
the shop count. Each car in the active fleet incurs maintenance costs for time-based
inspections and preventive maintenance. The company’s planned shop count for these
long-distance cars has been typically 1 car per every 3.2–4.8 cars required for service
                                                                                                      12
                         Amtrak Office of Inspector General
      Asset Management: Opportunities Exist to Enhance Decision-Making Process
                    for Utilization of Long-Distance Equipment
                    Report No. OIG-E-2015-001, October 23, 2014

(depending on the type of car).14 However, the number of cars planned for the shop
count in the April 11 plan exceeds current maintenance practices for three of the four
types of cars, as shown in Table 3, even though the new cars should have higher
reliability than the cars they are replacing, according to company officials.

Table 3. Comparison of Current Shop Count Practice to the Proposed Shop Count
                     for the New Cars in the April 11 Plan
             Current Ratio of Planned In       Shop Count                  Planned           Excess
             Planned Shop      Service in      Based on                    Shop Count        Cars in
Car Type     Count to Cars     April 11 Plan   Current Ratio               in April 11       Planned
             Required for                                                  Plan              Shop Count
             Service
Baggage                1 : 4.8             48              10                           22            12
Combination*           1 : 4.0               5               2                           5             3
Sleeping               1 : 4.0             60              15                           15             0
Dining                 1 : 3.2             15                5                          10             5
Totals                                                     32                           52            20
Source: OIG analysis of Marketing’s April 11, 2014 utilization plan and the Operation department’s
December 2012 fleet assignment plan
*We are using the more conservative current ratio between the baggage and sleeping cars as an
estimate for the combination car.

This results in 20 cars that are planned to go into the shop count above current
practices. We reviewed the company’s internal cost allocation database, which showed
that time-based maintenance costs per car for the single-level long-distance fleet
average about $27,000–$35,000 per year. Using these numbers as an estimate for the
potential annual maintenance costs of keeping these cars in the shop count, we estimate
that the expected annual operating expense of keeping all 20 cars service-ready is about
$540,000. In the past, the company has put equipment into storage until it was needed
to reduce the higher costs associated with keeping it service-ready.

Decision-Making Process Did Not Include Risk Analysis

According to sound business practices, once an alternative to meet a business need is
selected, the potential risks of pursuing the option should be analyzed, and plans for
mitigating these risks should be developed to help ensure that the goals of the initiative


___________________________
14We are defining cars required for service as the number of cars needed to meet peak usage and any
spares kept in the active fleet.
                                                                                          13
                        Amtrak Office of Inspector General
     Asset Management: Opportunities Exist to Enhance Decision-Making Process
                   for Utilization of Long-Distance Equipment
                   Report No. OIG-E-2015-001, October 23, 2014

are realized. This has not yet been accomplished for the recommendations for utilizing
the new cars that were presented on April 11, 2014.

A well-established method for identifying, assessing, and mitigating the risks associated
with alternatives to meet a business need is to conduct a sensitivity analysis on the
assumptions and estimates in the assessment supporting the alternative. The working
group did not conduct a sensitivity analysis or a similar analysis to consider how its
estimate—that incremental revenue attributable to the deployment of the new cars will
exceed incremental costs by $2.8 million annually—might be affected by variations in
those estimates. Such an analysis would be necessary to quantify and assess the
potential risks and determine the extent to which they need to be mitigated.


CONCLUSIONS
The company has undertaken initiatives to improve the utilization of its long-distance
equipment. However, the benefits associated with those initiatives may be overstated
because the processes used to support the decisions, although generally sound, have
not been as analytically rigorous or disciplined as they should be to support strategic
decision-making. As a result, decisions have been made based on incomplete or
inaccurate analysis—without the benefit of a risk assessment and related mitigation
plans. Also, some of the initiatives have been conducted outside the purview of the
general manager who is accountable for the financial performance of long-distance
trains. Because the initiatives are ongoing, the company has time to address the issues
discussed in this report, make adjustments to the initiatives as determined necessary,
and take action to optimize the use of the long-distance fleet and further support the
strategic goal of achieving financial excellence.


RECOMMENDATIONS
We recommend that the Vice President, Operations, take the following actions:

   1. Ensure that a consistent process that follows sound business practice is
      developed, documented, and implemented for decisions related to the utilization
      of long-distance equipment. This process should:
          a. Assign clear accountability and responsibility for decision-making, and
             for conducting the analysis required to make sound decisions.
                                                                                          14
                          Amtrak Office of Inspector General
       Asset Management: Opportunities Exist to Enhance Decision-Making Process
                     for Utilization of Long-Distance Equipment
                     Report No. OIG-E-2015-001, October 23, 2014

           b. Include a consistent methodology for determining the appropriate shop
              count for different types of equipment.
   2. Ensure that the analyses of the costs and risks associated with the initiatives for
      the Sunset Limited and Auto Train are completed to validate the net benefits of
      each initiative and revise the initiatives as needed to optimize fleet utilization.
   3. Ensure that the analysis for optimizing the cost-effective utilization of the new
      single-level long-distance cars is completed in a manner consistent with sound
      business practices, including:
           a. Developing reliable data on baggage requirements to ensure that full-
              baggage and baggage-dormitory cars are optimally deployed, based on
              current requirements and any changes to the business model being
              considered.
           b. Determining the costs and benefits of putting all of the new equipment
              into the active fleet as planned, compared with other options such as
              storing or leasing some of the cars until increased demand or other
              circumstances warrant their use.

   4. Modify the deployment plans for the new single-level long-distance cars, as
      appropriate, based on the results of the completed analysis.
   5. Consider implementing the sleeper car attendant changes proposed in the April
      11 plan across all of the overnight single-level long-distance trains.


MANAGEMENT COMMENTS AND OIG ANALYSIS
In response to a draft report of this, the company generally agreed with our
recommendations. The actions cited in the management comments address the intent of
our recommendations. Therefore, the recommendations are resolved but will remain
open pending verification that the actions cited have been implemented. Appendix D
contains management’s complete response. Presented below is a summary of the
company’s responses to the recommendations and our analysis.

      In response to recommendation 1 that addresses the need for a process and
       accountability for making long-distance fleet utilization decisions, including
       shop count decisions, the company generally agreed. The company first stated
       that it is implementing processes to support decision-making on how best to use
                                                                                        15
                       Amtrak Office of Inspector General
    Asset Management: Opportunities Exist to Enhance Decision-Making Process
                  for Utilization of Long-Distance Equipment
                  Report No. OIG-E-2015-001, October 23, 2014

    its capital assets and cited examples such as the use of business case analysis. The
    company also stated that the Vice President of Operations has responsibility for
    making decisions related to the utilization of long-distance equipment in
    consultation with the Chief Marketing and Sales Officer. The company further
    noted that the long-distance business line general manager is responsible for
    determining how to best use long-distance equipment, and that it will establish a
    process to determine the appropriate shop count for different equipment during
    Fiscal Year 2015.

    These cited actions and plans address the intent of our recommendation. Because
    most of these actions are being implemented or planned, their effectiveness
    cannot yet be determined. Consequently, we will monitor and assess their
    effectiveness as they are implemented.

   In response to recommendation 2, related to the need to analyze the costs and
    risks associated with the initiatives for the Sunset Limited and Auto Train, the
    company agreed stating that the analysis will be completed before August 1,
    2015. We will review that analysis when it is completed.

   In response to recommendation 3 the company generally agreed to ensure that
    the analysis for optimizing the use of the new single-level long-distance cars is
    completed in a manner consistent with sound business practices. Although the
    company noted that they cannot fully determine baggage requirements until an
    electronic baggage tracking system is implemented it reiterated plans to deploy
    all of the new cars into active service. To the extent a specific type of new car
    might not be needed due to reduced demand in off peak seasons, it would store
    older cars because of the likely operating and maintenance benefits that, for
    example, a new baggage car would have over a 60 year old car.

    We understand the rationale for using new equipment and storing older
    equipment if necessary. However, by the time the new cars are delivered,
    operating facts and circumstances could change. At this time, our analysis
    indicates that storing excess new cars is the best financial option, as illustrated in
    Table 3 of this report. As the company noted throughout its response to
    recommendations, it is implementing improved processes to support decision-
    making on how best to use its capital assets. Decision-makers in this case would
    benefit from the use of those processes as the new cars are delivered and
    decisions are made on whether they will be used or stored.
                                                                                     16
                       Amtrak Office of Inspector General
    Asset Management: Opportunities Exist to Enhance Decision-Making Process
                  for Utilization of Long-Distance Equipment
                  Report No. OIG-E-2015-001, October 23, 2014

   The company agreed with recommendation 4 to modify deployment plans for
    the new single-level long-distance cars based on an analysis with more
    comprehensive considerations. The company stated that it has not yet made
    decisions on the deployment of the single-level long distance cars and it
    continues to analyze scenarios for maximizing the benefits of these assets,
    including perhaps using some on State-Supported trains.

   In response to recommendation 5, related to implementing sleeper-car attendant
    changes, the company generally agreed stating that it will make the staffing
    changes on some routes that have sufficient sleeping accommodations to result
    in a net financial benefit by the end of Fiscal Year 2015. As discussed previously,
    we estimate that these changes could save the company about $3.7 million and
    result in funds that could be put to use elsewhere. Staffing changes on other
    routes, which could result in additional savings, cannot be made until the new
    sleeper cars are delivered.
                                                                                           17
                          Amtrak Office of Inspector General
       Asset Management: Opportunities Exist to Enhance Decision-Making Process
                     for Utilization of Long-Distance Equipment
                     Report No. OIG-E-2015-001, October 23, 2014

                                        Appendix A
                        SCOPE AND METHODOLOGY

This report provides the results of our evaluation of Amtrak’s two initiatives to address
the utilization of its long-distance passenger cars. The objective of this report is to assess
the extent to which the company is using a process for making fleet utilization decisions
that consistently follows sound business practices. The scope of our work primarily
focused on assessing processes used to guide the work of groups in the Operations and
Marketing departments that are planning to improve the financial performance of long-
distance trains. We also reviewed information related to the planned use of 130 new
passenger cars that are being purchased. We performed our work from February 2013
through October 2014 in Washington, D.C.; Philadelphia, Pennsylvania; and Chicago,
Illinois. Although this work spanned 20 months, the evaluation team was assigned to
another project from May through September 2013.

To assess the company’s decision making process for long-distance train utilization, our
overall methodology was to compare the processes being used to sound business
practices. Using that comparative analysis, we identified process strengths and
opportunities for improvement. We previously identified these practices in two reports,
and our analysis showed that these practices provide a framework for enhancing
decision-making and minimizing risk. We believe they apply to making decisions about
how best to use passenger cars, and we used this criterion to analyze each of the
company’s efforts. We also collected and analyzed information about each initiative in
the following manner:

      To analyze the utilization initiatives being led by the long-distance business
       line, we discussed these initiatives with the senior managers of long-distance
       services responsible for the financial and operational performance of trains
       operating in the southwest, southeast, and central regions. We obtained and
       analyzed the business line’s long-term plans, on-time performance data, and cost
       and revenue estimates developed by business line managers to support the
       initiatives discussed in this report.
      To examine the initiative to determine how best to use the new long-distance
       single-level cars, we discussed the initiative with officials in the Marketing,
       Operations, and Finance departments, and the Office of Procurement and
       Materials Management. We collected and analyzed ridership and revenue data,
       incremental cost estimates for adding equipment to existing trains, and contract
                                                                                        18
                        Amtrak Office of Inspector General
     Asset Management: Opportunities Exist to Enhance Decision-Making Process
                   for Utilization of Long-Distance Equipment
                   Report No. OIG-E-2015-001, October 23, 2014

       documents. We developed a model based on ridership demand and cost data
       provided by the Marketing and Finance departments to evaluate the financial
       performance of the different alternatives for using the new cars on different
       single-level long-distance routes. When we identified opportunities for
       improvement we developed estimates of the financial impact related to those
       opportunities. We validated our financial estimate methodologies with officials
       from these departments.

We performed this evaluation in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the evaluation to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our objectives.

Use of Computer-Processed Data
As part of our evaluation, we used data provided by company officials from two
information systems. To determine the reliability of the data, we took the following
steps. To assess the reliability of the passenger car maintenance data included in the
company’s internal cost allocation database, we discussed the limitations of the data
with officials from the Mechanical department. These limitations are the result of the
system relying on a cost-allocation methodology rather than directly assigning expenses
to maintenance activities. However, these limitations did not affect how we used this
data to identify the operational costs for keeping 20 extra cars in the shop count, and the
Marketing department did not consider these limitations in its analysis. Therefore, we
determined the data provided was adequate for our purposes, and we did not attempt
to further validate the data.

Internal Controls
In conducting the evaluation, we reviewed the company’s management control
processes and practices for determining how to use long-distance passenger cars within
the context of our scope and objective. This included reviewing how the company
identifies its equipment needs for long-distance trains, how it developed cost and
revenue estimates for utilization initiatives, and how it developed options for deploying
new long-distance single-level cars. This report discusses how the management control
processes can be improved. We did not review controls over the business line’s overall
plan for reducing long-distance train operating losses.
                                                                                         19
                          Amtrak Office of Inspector General
       Asset Management: Opportunities Exist to Enhance Decision-Making Process
                     for Utilization of Long-Distance Equipment
                     Report No. OIG-E-2015-001, October 23, 2014

Prior Reports
Two OIG reports are relevant to this evaluation:

      Corporate Governance: Planned Changes Should Improve Amtrak’s Capital Planning
       Process, and Further Adoption of Sound Business Practices Will Help Optimize the Use
       of Limited Capital Funds (OIG-E-2013-020, September 27, 2013)

      Asset Management: Integrating Sound Business Practices into its Fleet Planning
       Process Could Save Amtrak Hundreds of Millions of Dollars on Equipment
       Procurements (OIG-E-2013-014, May 28, 2013)
                                                                           20
                   Amtrak Office of Inspector General
Asset Management: Opportunities Exist to Enhance Decision-Making Process
              for Utilization of Long-Distance Equipment
              Report No. OIG-E-2015-001, October 23, 2014

                              Appendix B
                COMMENTS FROM AMTRAK
                                                                           21
                   Amtrak Office of Inspector General
Asset Management: Opportunities Exist to Enhance Decision-Making Process
              for Utilization of Long-Distance Equipment
              Report No. OIG-E-2015-001, October 23, 2014
                                                                           22
                   Amtrak Office of Inspector General
Asset Management: Opportunities Exist to Enhance Decision-Making Process
              for Utilization of Long-Distance Equipment
              Report No. OIG-E-2015-001, October 23, 2014
                                                                           23
                   Amtrak Office of Inspector General
Asset Management: Opportunities Exist to Enhance Decision-Making Process
              for Utilization of Long-Distance Equipment
              Report No. OIG-E-2015-001, October 23, 2014
                                                                           24
                   Amtrak Office of Inspector General
Asset Management: Opportunities Exist to Enhance Decision-Making Process
              for Utilization of Long-Distance Equipment
              Report No. OIG-E-2015-001, October 23, 2014
                                                                           25
                   Amtrak Office of Inspector General
Asset Management: Opportunities Exist to Enhance Decision-Making Process
              for Utilization of Long-Distance Equipment
              Report No. OIG-E-2015-001, October 23, 2014
                                                                           26
                   Amtrak Office of Inspector General
Asset Management: Opportunities Exist to Enhance Decision-Making Process
              for Utilization of Long-Distance Equipment
              Report No. OIG-E-2015-001, October 23, 2014
                                                                                 27
                         Amtrak Office of Inspector General
      Asset Management: Opportunities Exist to Enhance Decision-Making Process
                    for Utilization of Long-Distance Equipment
                    Report No. OIG-E-2015-001, October 23, 2014

                                    Appendix C
                  ACRONYMS AND ABBREVIATIONS

OIG                Amtrak Office of Inspector General

the company        Amtrak
                                                                                28
                        Amtrak Office of Inspector General
     Asset Management: Opportunities Exist to Enhance Decision-Making Process
                   for Utilization of Long-Distance Equipment
                   Report No. OIG-E-2015-001, October 23, 2014

                                     Appendix D
                            OIG TEAM MEMBERS


Calvin Evans, Assistant Inspector General, Inspections and Evaluations

Jason Venner, Senior Director, Inspections and Evaluations

Larry Chisley, Lead Evaluator

Timothy Wells, Principal Operations Analyst
         OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission   The Amtrak OIG’s mission is to provide independent,
                       objective oversight of Amtrak’s programs and operations
                       through audits, inspections, evaluations, and
                       investigations focused on recommending improvements
                       to Amtrak’s economy, efficiency, and effectiveness;
                       preventing and detecting fraud, waste, and abuse; and
                       providing Congress, Amtrak management, and Amtrak’s
                       Board of Directors with timely information about
                       problems and deficiencies relating to Amtrak’s programs
                       and operations.


Obtaining Copies of    Available at our website: www.amtrakoig.gov
OIG Reports and
testimony

To Report Fraud,       Report suspicious or illegal activities to the
Waste, and Abuse       OIG Hotline (you can remain anonymous):

                       Web: www.amtrakoig.gov/hotline

                       Phone: 800-468-5469


Contact Information    David R. Warren
                       Assistant Inspector General, Audits

                       Mail:       Amtrak OIG
                                   10 G Street, NE, 3W-300
                                   Washington, D.C. 20002-4285

                       Phone:      202-906-4600
                       Email:      david.warren@amtrakoig.gov
